HHS/OIG, Audit -"Review of the Ryan White Care Act Title II in New Jersey For The Grant Year April 1, 2001, Through
March 31, 2002,"(A-03-03-00377)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ryan White Care Act Title II in New Jersey For The Grant Year April 1, 2001, Through March 31, 2002," (A-03-03-00377)
March 15, 2005
Complete
Text of Report is available in PDF format (358 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the New Jersey Department of Health and Senior Services (New Jersey):  (1)
met its Ryan White CARE Act Title II (Title II) service measurement goals, (2) complied with program requirements for the
expenditure of Title II funds, (3) followed applicable cost requirements in the expenditure of Title II funds.  We
found that New Jersey (1) reported that it did not meet the majority of its service measurement goals, (2) complied with
program requirements for the expenditure of Title II funds, and (3) complied with applicable cost requirements in the expenditure
of Title II funds with one minor exception.  New Jersey expended Federal funds of $15,704 for 67 duplicate AIDS Drug
Assistance Program claims.  We recommended that New Jersey (1) assure it achieves future service measurement goals,
and (2) establish procedures to eliminate duplicate payments, credit $15,704 to the Title II program and credit Title II
for the Federal portion of duplicate claims identified in other grant years.  New Jersey concurred with our recommendations.